TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Internal Revenue Service Is Making
                     Progress Toward Implementing Daily
                     Processing of Individual Tax Returns



                                           July 24, 2012

                              Reference Number: 2012-40-085




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


THE INTERNAL REVENUE SERVICE IS                         The IRS analyzed tax account transactions and
MAKING PROGRESS TOWARD                                  other conditions that affect tax return processing
IMPLEMENTING DAILY PROCESSING OF                        and identified those that would require additional
INDIVIDUAL TAX RETURNS                                  time to ensure tax returns were processed
                                                        correctly. These transactions are referred to as
                                                        disqualifiers. Tax accounts that contain one or
Highlights                                              more disqualifiers will continue to be processed
                                                        weekly. Our review of 89 of 108 disqualifiers on
                                                        more than 79 million taxpayer accounts
Final Report issued on July 24, 2012                    processed between January 17 and
                                                        February 29, 2012, found that the IRS computer
Highlights of Reference Number: 2012-40-085             system was correctly programmed.
to the Internal Revenue Service Commissioner
for the Wage and Investment Division.                   The IRS conducted reviews of tax accounts and
                                                        tax return transactions during the 2012 Filing
IMPACT ON TAXPAYERS                                     Season to monitor the accuracy of CADE 2
The Customer Account Data Engine 2 (CADE 2)             processing. However, it verified only a fraction
will expand daily processing of individual tax          of the approximately 119 million individual tax
returns and will result in a single relational          returns processed through April 30, 2012. In
database that houses all individual taxpayer            addition, the IRS did not track which disqualifiers
accounts. This database will replace the                it verified as part of its review. Unless the IRS
Individual Master File and serve as a central           verifies at least a limited number of tax accounts
source of individual tax return data, making            that contain each of the identified disqualifiers, it
reporting and retrieval of taxpayer account data        cannot be assured that individual tax account
faster and more efficient. The benefits of daily        transactions are properly posting to the Master
processing include faster refunds for taxpayers         File.
and timelier responses to taxpayers’ inquiries          WHAT TIGTA RECOMMENDED
about their accounts.
                                                        TIGTA made no recommendations as a result of
WHY TIGTA DID THE AUDIT                                 the work performed during the review. However,
This audit was initiated as part of our efforts to      key IRS officials reviewed the report prior to its
evaluate the IRS’s modernization of its tax             issuance and agreed with the facts and
processing systems. The overall objective of            conclusions presented.
this review was to evaluate the accuracy of the
IRS’s implementation of daily tax return
processing during the 2012 Filing Season.
WHAT TIGTA FOUND
At the end of Calendar Year 2011, the IRS had
identified more than 122 million taxpayer
accounts for daily processing and more than
148 million taxpayer accounts for weekly
processing. Through April 30, 2012, the IRS
had successfully processed 71 million individual
tax returns through daily tax return processing.
The IRS’s planning efforts reduced the risk
associated with the daily processing of individual
tax returns. In addition, the IRS accurately
identified tax accounts for daily processing.
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 24, 2012


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Internal Revenue Service Is Making Progress
                                 Toward Implementing Daily Processing of Individual Tax Returns
                                 (Audit # 201140048)

 This report presents the results of our review to evaluate the accuracy of the Internal Revenue
 Service’s implementation of daily tax return processing during the 2012 Filing Season.1 This
 review is included in our Fiscal Year 2012 Annual Audit Plan and addresses the major
 management challenge of Modernization.
 Management did not provide a formal response to this report. However, key IRS officials
 reviewed the report prior to its issuance and agreed with the facts and conclusions presented.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report. Please contact me at (202) 622-6510 if you have questions or Augusta R. Cook, Acting
 Assistant Inspector General for Audit (Returns Processing and Account Services), at
 (770) 617-6434.




 1
     See Appendix IV for a glossary of terms.
                           The Internal Revenue Service Is Making Progress
                     Toward Implementing Daily Processing of Individual Tax Returns




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Planning Efforts Were Sufficient to Reduce the Risk Associated
          With Daily Processing for Individual Tax Returns....................................... Page 4
          The Internal Revenue Service Accurately Identified Tax Accounts
          for Daily and Weekly Processing ................................................................. Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 11
          Appendix III – Report Distribution List ....................................................... Page 12
          Appendix IV – Glossary of Terms ................................................................ Page 13
              The Internal Revenue Service Is Making Progress
        Toward Implementing Daily Processing of Individual Tax Returns




                        Abbreviations

CADE              Customer Account Data Engine
GAO               Government Accountability Office
IRS               Internal Revenue Service
TIGTA             Treasury Inspector General for Tax Administration
                          The Internal Revenue Service Is Making Progress
                    Toward Implementing Daily Processing of Individual Tax Returns




                                               Background

The Internal Revenue Service’s (IRS) main processing system for individual tax returns was
developed more than 50 years ago and processes tax returns on a weekly basis. The IRS
continued to process individual tax returns on a weekly basis until Processing Year1 2005, when
the IRS implemented an initiative to process individual tax returns daily. This initiative, referred
to as the Customer Account Data Engine (CADE), was designed to post information to
taxpayers’ accounts daily rather than weekly. The IRS anticipated that the CADE would
facilitate faster refunds to taxpayers and allow IRS employees to provide improved service to
taxpayers because employees would have up-to-date, accurate account information available. As
of Processing Year 2009, the IRS had posted more than 40 million individual tax returns to the
Individual Master File (Master File) through the CADE.
In August 2008, a team of high-level IRS officials concluded that the IRS did not have the
capability to complete and release the CADE as originally planned. Factors the IRS considered
include:
          Increased Cost for Each Filing Season. Each filing season, the IRS expended the
           resources to design, develop, integrate, and test tax law changes in both the Master File
           and the CADE. As a result, the cost to deliver each filing season was increased.
          Limited Processing Capability. Although the CADE was implemented in Processing
           Year 2005, the system was still only able to process the simplest individual tax returns;
           e.g., those with refunds claimed and no processing issues. The most complex
           functionality was planned for future CADE releases.
          Lack of a Target-State Architecture. The IRS did not have a vision for what the
           CADE would look like once fully implemented or an attainable goal for when it planned
           to complete the implementation of the CADE. Instead, the IRS made incremental
           changes to the current architecture to meet the business requirements of each release and
           filing season.
          Integration Challenges. As the IRS added more complex taxpayer returns to the CADE,
           integration with other systems became more complex and increased the likelihood of
           breakdowns during implementation.
          Critical Resource Shortage. The IRS has a limited number of staff who possess the
           in-depth business and technical knowledge of the CADE, Master File, and other core
           processes and applications associated with individual taxpayer account processing.

1
    See Appendix IV for a glossary of terms.
                                                                                                Page 1
                      The Internal Revenue Service Is Making Progress
                Toward Implementing Daily Processing of Individual Tax Returns



In June 2009, the IRS Commissioner approved a revised plan to better manage individual tax
return accounts called the CADE 2 Program. The CADE 2 Program will build on the CADE
data model and database design to better manage all individual taxpayer accounts. In addition to
expanding the daily processing of individual tax returns, the CADE 2 will result in a single
relational database that houses all individual taxpayer accounts. This database will replace the
Master File and serve as a central source of individual tax return data, making reporting and
retrieval of taxpayer account data faster and more efficient. The IRS indicates that the CADE 2
will result in timelier taxpayer data, increased analytical data stores, improved or increased tools
to more effectively use data for compliance and customer service, and enhanced data security.
The CADE 2 Program is scheduled to replace the Master File in Calendar Year 2014 or 2015.
The IRS plans to deliver the CADE 2 Program through a series of stages known as Transition
States. The IRS began to deliver Transition State 1 in January 2012. Transition State 1 consists
of three primary objectives:
       Process individual tax returns daily rather than weekly. The IRS began processing
        individual tax returns daily through the CADE 2 in January 2012.
       Develop a CADE 2 database and populate the database with individual taxpayer
        accounts. The IRS is not scheduled to fully populate the CADE 2 database until
        August 2012.
       Make progress toward resolving material financial weaknesses reported by the
        Government Accountability Office (GAO).2 For example, the GAO’s Fiscal Year 2011
        evaluation of the IRS’s internal controls identified a continuing material weakness over
        unpaid tax assessments. The GAO indicated this weakness is due to the IRS’s inability to
        rely on its financial management systems for tax-related transactions and its underlying
        subsidiary records to report taxes receivable, compliance assessments, or write-offs in
        accordance with Federal accounting standards. The implementation of the CADE 2
        database during Transition State 1 will provide a basis for the IRS to begin to address
        reported financial material weaknesses.
Transition State 2 will focus on resolving financial material weaknesses and building or
modifying existing applications to directly interact with the CADE 2 database. The IRS
estimates it will complete Transition State 2 in Calendar Year 2014 or 2015. The IRS does not
have an estimated date as to when all of the planned CADE 2 functionality (Target State) will be
implemented.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Wage
and Investment Division, Business Modernization Office, and the Modernization and


2
 Government Accountability Office (formerly known as the General Accounting Office), GAO-12-165,
FINANCIAL AUDIT, IRS’s Fiscal Years 2011 and 2010 Financial Statements (Nov. 2011).

                                                                                                   Page 2
                     The Internal Revenue Service Is Making Progress
               Toward Implementing Daily Processing of Individual Tax Returns



Information Technology Services organization, Applications Development Office, during
August 2011 through April 2012. Our review was limited to an assessment of the IRS’s
implementation of daily processing for individual tax returns as part of the CADE 2 Transition
State 1. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                         Page 3
                     The Internal Revenue Service Is Making Progress
               Toward Implementing Daily Processing of Individual Tax Returns




                                 Results of Review

Our assessment of the IRS’s planning efforts for the implementation of daily tax return
processing during the 2012 Filing Season showed that the IRS’s efforts were sufficient to ensure
tax account transactions are processed to the Master File on a daily basis. The IRS processed
approximately 119 million individual tax returns as of April 30, 2012. Of these, approximately
71 million (60 percent) individual tax returns were posted to the Master File using daily tax
return processing.

Planning Efforts Were Sufficient to Reduce the Risk Associated With
Daily Processing for Individual Tax Returns
The IRS began work on the CADE 2 in the middle of Calendar Year 2009. Each IRS business
unit with a role in individual tax return processing participated in the planning activities by
completing an assessment to determine how its unit would be affected by the CADE 2. These
impact assessments addressed several categories: training, policy, resources, the Internal
Revenue Manual, changes in tours-of-duty, new position descriptions, and standard operating
procedures. The assessments also included an evaluation of the number of employees affected.
Once the impact assessments were completed, the business units worked with the Business
Modernization Office’s CADE 2 Transition Management team (Transition team) to develop
readiness plans to address the impacted areas. The readiness plans included descriptions of the
impacts identified, actions that would be taken to address the impacts, and the dates the actions
would be completed or implemented. Each business unit had a national point of contact that was
responsible for updating their business unit’s readiness plan and coordinating with the Transition
team. In addition, the Transition team had biweekly meetings with the national points of contact
to discuss the status of the readiness plans and any related issues. IRS executives certified in late
December 2011 and early January 2012 that their business units were prepared for the
deployment of the CADE 2 Transition State 1 in January 2012.
We reviewed 18 impact assessments and 31 readiness plans. In addition, we attended weekly
meetings between the Transition team and the national points of contact between October 2011
and February 2012. Our assessment raised no concerns with the IRS’s planning efforts for
the CADE 2 Transition State 1. Figure 1 presents a timeline of the IRS’s planning for the first
phase of the CADE 2 implementation.




                                                                                              Page 4
                        The Internal Revenue Service Is Making Progress
                  Toward Implementing Daily Processing of Individual Tax Returns



       Figure 1: Timeline of IRS Planning Efforts for CADE 2 Daily Processing

    Time Frame                                                  Activity

June 2009             The IRS Commissioner chartered the CADE 2 Program to implement a revised plan
                      that would build on some features of the previous CADE processing platform.
August 2009           The Business Modernization Office’s CADE Project Office staff (referred to as the
                      Project Office) at the National Office and representatives from all of the business
                      operating divisions put together the plan for the CADE 2. The Project Office started
                      with the existing CADE requirements and enhanced them for the CADE 2. In
                      addition, it analyzed more than 900 of the various processing codes3 and determined
                      whether each item should be processed daily or weekly.
August and            The Project Office had multiple meetings with the Master File programmers to
September 2009        analyze how the various processing codes interrelated with the computer programs.
                      Additional information and details were obtained from meetings between the
                      Modernization and Information Technology Services organization and technical
                      persons within the business operating divisions, meetings among the business
                      partners, and meetings with the Chief Financial Officer. The combined information
                      obtained from these meetings was used to prepare the first draft of the information
                      technology products and services request in September 2009.
May 2010 to           The Project Office had numerous follow-up meetings with the business operating
November 2011         divisions to analyze and compare the requirements against the draft computer
                      programming.
December 2011         A computer program was executed that would establish an indicator on all individual
                      tax accounts to show whether an account could be processed daily.
January 2012          The final computer programming was put into place for the beginning of the
                      2012 Filing Season.
Source: CADE Project Office.

The IRS developed a list of items that can be processed daily versus weekly
Although the IRS is moving from weekly processing of individual tax returns to daily
processing, not all individual tax returns can be processed daily. Individual tax returns that
require additional actions to ensure the tax return is accurate before it can be processed must
continue to be processed on a weekly basis to allow the IRS time to verify and correct the tax
return before it posts to the Master File. The IRS included efforts in its CADE 2 planning to
identify specific tax return transactions and taxpayer accounts that require additional review prior
to processing the tax return. Based on its analysis, the IRS identified approximately 148 million
taxpayer accounts that contained characteristics that would cause a tax return to be processed
weekly (called disqualifiers). The IRS grouped the disqualifiers into four categories.

3
 Processing codes could include any of the various transaction codes, resequencing codes, notice codes, or other
characteristics in a taxpayer’s account.
                                                                                                            Page 5
                     The Internal Revenue Service Is Making Progress
               Toward Implementing Daily Processing of Individual Tax Returns



      Entity: Entity disqualifiers relate to transactions or characteristics that are on the entity
       portion of a tax account. Examples include accounts marked as identity theft, accounts in
       bankruptcy litigation, and accounts with an IRS processing center zip code.
      Tax Module – Freeze: Tax Module Freeze disqualifiers relate to conditions present on
       the individual tax periods within a tax account. Examples include tax periods with a
       claim pending, with an offer-in-compromise, or marked uncollectible.
      Tax Module – Transactions: Tax Module Transaction disqualifiers relate to codes or
       transactions present on the individual tax periods within a tax account. Examples include
       tax periods with certain penalty transactions or underreporter issues.
      Incoming Transactions: Incoming transaction disqualifiers relate to conditions posting
       to tax periods during the 2012 Filing Season. Examples include changes to the tax
       account or adjustments made to the tax return as a result of actions taken at the time the
       tax return is processed.
We reviewed the IRS’s categories of disqualifiers and performed limited testing to ensure the
lists were complete. We identified four key areas of tax return processing that we believe could
result in erroneous refunds being issued if tax returns identified by these programs are not
resequenced to allow the IRS adequate time to verify the tax return.
     Taxpayer accounts that went through the Electronic Fraud Detection System.
     Taxpayer accounts reviewed by the Accounts Management Taxpayer Assurance
      Program.
     Taxpayer accounts that could receive a notice.
     Taxpayer accounts that went through a pre-refund examination program.
We met with representatives from each of these areas and identified transactions that they
believed would be on the tax account if a tax return went through one of these areas. We then
compared the transactions identified with the IRS’s list of disqualifiers. Our analysis found that
the IRS adequately considered all of the transactions associated with our four high-risk areas
when compiling the items that should be disqualified from daily processing.
In addition, the IRS is continuing to refine its list of transactions and tax accounts that can be
processed daily. Representatives from the CADE 2 Business Modernization Office and the
Modernization and Information Technology Services organization met in early March 2012 to
discuss the need to identify additional transactions that could be processed daily. As a result of
these meetings, the IRS requested revisions to the programming for Processing Year 2013 to
allow additional items to be processed daily. It requested these revisions because IRS employees
need to know events that occur on tax accounts as quickly as possible to ensure they have the
most accurate information when processing the tax return and responding to taxpayer inquiries.

                                                                                             Page 6
                           The Internal Revenue Service Is Making Progress
                     Toward Implementing Daily Processing of Individual Tax Returns



The Internal Revenue Service Accurately Identified Tax Accounts for
Daily and Weekly Processing
At the end of Calendar Year 2011, the IRS identified all individual tax accounts with one or
more Entity, Tax Module Freeze, or Tax Module Transaction disqualifiers. The IRS placed an
indicator on each of these accounts to show that the individual tax returns filed on these tax
accounts must be processed weekly. The IRS marked all other tax accounts for daily processing.
At the end of Calendar Year 2011, the IRS had identified more than 122 million tax accounts for
daily processing and more than 148 million tax accounts for weekly processing.
The IRS began applying the Incoming Transactions disqualifiers to taxpayer accounts during
Processing Year 2012. As individual tax returns are processed, the IRS evaluates the actions
taken on the tax returns. If a disqualifying incoming transaction occurs on a tax account that was
previously identified for daily processing, the IRS updates the daily processing indicator on the
tax account to show the account must now be processed weekly.
Our analysis of the IRS’s processing of tax return transactions posting to the Master File
indicates that the IRS correctly programmed transactions that should have been disqualified from
daily processing. We selected a judgmental sample4 of 89 (82 percent) of the 108 IRS-identified
disqualifiers posting between January 17 and February 29, 2012. Our analysis of more than
79 million taxpayer accounts that contained one or more of these 89 disqualifiers found that the
majority of items designated for weekly processing are being processed correctly. Figure 2
below provides the results of our analysis.
                 Figure 2: Analysis of Disqualifiers Posting to the Master File
                          Between January 17 and February 29, 2012

                                                                                                 Disqualifiers
                                          Disqualifiers              Disqualifiers               Programmed
                Category                 IRS Identified             TIGTA Sampled                 Incorrectly
       Entity                                   20                          14                          2
       Tax Module Freeze                        14                          13                          0
       Tax Module Transaction                    9                           7                          0
       Incoming Transactions                    65                          55                          1
       Total                                   108                          89                          3
      Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Master File data posted from
      January 17 through February 29, 2012.




4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 7
                     The Internal Revenue Service Is Making Progress
               Toward Implementing Daily Processing of Individual Tax Returns



We discussed our concerns with three disqualifiers with IRS management in January and
February 2012. These three disqualifiers related to the taxpayers’ zip code, filing location, and a
processing code that the IRS uses in its examination program. The volume of transactions
associated with these three disqualifiers was extremely low (these three disqualifiers appeared in
only 0.06 percent of the 79 million tax accounts we reviewed). Despite the low volumes, IRS
management agreed that these three disqualifiers were not functioning as intended and indicated
they would make programming changes to correct them.

The IRS could improve its verification of daily and weekly processing
The IRS established a process to verify that transactions are posting correctly to the Master File.
However, our analysis of the IRS’s verification plan indicates that the IRS’s efforts may not be
sufficient to identify errors in daily and weekly processing.
The Project Office randomly selected 20 tax accounts and verified that the processing indicator
was correctly set as either daily or weekly during the first CADE 2 initialization run. This same
review was performed on an additional 25 tax accounts after the March 2012 CADE 2
initialization. In addition, the Project Office randomly selected individual tax returns for
verification of the accuracy of both daily and weekly processing. The Project Office verified the
accuracy of the processing of 249 individual tax returns between January 31 and April 4, 2012.
The IRS found that the CADE 2 is accurately processing individual tax returns on a daily and
weekly basis.
Although our analysis of tax account transactions posting to the Master File between
January 17 and February 29, 2012, indicate transactions are correctly posting to the Master File,
we are concerned that the IRS verified the accuracy of tax return processing for only a fraction of
the approximately 119 million individual tax returns processed through April 30, 2012. In
addition, the IRS did not track which disqualifiers it verified as part of its review. Unless the
IRS verifies at least a limited number of tax accounts that contain each of the identified
disqualifiers, it cannot be assured that individual tax account transactions are properly posting to
the Master File. As such, the IRS should consider creating a verification plan to determine if all
tax account disqualifiers are accurately identified during processing. The systemic nature of
daily and weekly processing should reduce the number of tax accounts the IRS needs to review.




                                                                                             Page 8
                        The Internal Revenue Service Is Making Progress
                  Toward Implementing Daily Processing of Individual Tax Returns



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the accuracy of the IRS’s implementation of
daily tax return processing during the 2012 Filing Season.1 This review is included in TIGTA’s
Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of
Modernization.
To accomplish the objective, we:
I.      Assessed the IRS’s planning efforts to implement daily processing for individual tax
        returns.
        A. Interviewed IRS management about their process to identify transactions for daily or
           weekly processing and reviewed CADE 2 documentation and information for
           transactions used to process individual tax returns.
        B. Evaluated the completeness of the IRS’s identification of individual tax return
           transactions that should be processed weekly.2 To do this, we obtained the IRS’s list
           of transactions used to process individual tax returns. We also reviewed CADE 2
           documentation and interviewed IRS program managers to identify transactions
           associated with the Electronic Fraud Detection System, Accounts Management
           Taxpayer Assurance Program, Notice Review Program, and Pre-Refund Program.
           We then evaluated if the IRS considered all of the transactions for these four program
           areas and whether the transactions were identified for daily or weekly processing.3
        C. Assessed the IRS’s efforts to continue to identify tax return transactions that should
           be processed weekly.
             1. Obtained additional information related to the IRS planned method to add the
                daily eligible indicator to the tax accounts in December 2011 and March 2012.
             2. Obtained counts of the number of tax accounts that were not able to be processed
                daily as identified by the computer runs in December 2011 and March 2012.




1
  See Appendix IV for a glossary of terms.
2
  We were only concerned with weekly transactions because an erroneous refund could occur if a transaction that
should be processed weekly was incorrectly processed daily.
3
  There is a greater possibility of erroneous refunds in these four programs.
                                                                                                          Page 9
                     The Internal Revenue Service Is Making Progress
               Toward Implementing Daily Processing of Individual Tax Returns



II.    Evaluated the accuracy of daily and weekly processing of taxpayer accounts during the
       2012 Filing Season to determine if tax return transactions are accurately posting to the
       Individual Master File.
       A. Obtained an extract of tax account transactions that posted each day during
          January and February 2012 from the Individual Master File. The extract was created
          by TIGTA’s Data Center Warehouse programmers. We validated the information
          received in the data extract by confirming record counts and tracing information to
          the Integrated Data Retrieval System.
       B. Ensured that transactions were correctly posting daily and weekly by reviewing the
          posting dates and the daily eligible indicator.
III.   Assessed the effectiveness of the IRS process to monitor the accuracy of daily and
       weekly individual tax return processing during the 2012 Filing Season. To do this, we
       interviewed IRS management and reviewed the IRS’s plan to validate the accuracy of
       daily and weekly processing.
Data Validation
To assess the reliability of computer-processed data, programmers in the TIGTA Strategic Data
Services Division validated the data that were extracted, and we verified the data with
appropriate documentation. Judgmental samples were selected and reviewed to ensure that the
information presented was supported by external sources.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: CADE 2 Program criteria for daily or
weekly processing of individual tax account data and the Internal Revenue Manuals used by the
Wage and Investment Division’s Submission Processing, Accounts Management, and Return
Integrity and Correspondence Services functions to process individual tax returns. We evaluated
the internal controls by interviewing IRS management and conducting tests of the IRS’s
procedures to ensure daily and weekly processing of individual tax accounts were functioning
properly.




                                                                                          Page 10
                    The Internal Revenue Service Is Making Progress
              Toward Implementing Daily Processing of Individual Tax Returns



                                                                              Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Deann L. Baiza, Acting Director
Sharla J. Robinson, Acting Audit Manager
Sharon A. Buford, Senior Auditor
John L. Hawkins, Senior Auditor
Brian W. Hattery, Information Technology Specialist




                                                                                     Page 11
                    The Internal Revenue Service Is Making Progress
              Toward Implementing Daily Processing of Individual Tax Returns



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Return Integrity and Correspondence Services, Wage and Investment Division
SE:W:RICS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                  Page 12
                      The Internal Revenue Service Is Making Progress
                Toward Implementing Daily Processing of Individual Tax Returns



                                                                                   Appendix IV

                               Glossary of Terms

Term                     Definition

Accounts Management The primary focus of this program is revenue protection. Under it,
Taxpayer Assurance  employees screen, verify, and stop refunds reported on questionable or
Program             potentially fraudulent returns; for example, returns filed by prisoners or
                    identity thieves.
Calendar Year            The 12-consecutive-month period ending on December 31.
Electronic Fraud         A stand-alone automated system that detects reliable indicators of
Detection System         potential taxpayer fraud at the time individual tax returns are filed. It
                         also provides employees with tools needed to perform pre-refund
                         detection activities, e.g., screening returns and verifying income and
                         withholding information, and to stop the issuance of refunds for
                         potentially fraudulent tax returns.
Entity                   The portion of the Master File record that identifies the taxpayer. It
                         contains the name, address, and Social Security Number or Employer
                         Identification Number.
Filing Season            The period from January through mid-April when most individual
                         income tax returns are filed.
Individual Master File   The IRS database that maintains transactions or records of individual
(Master File)            tax accounts.
Integrated Data          IRS computer system capable of retrieving or updating stored
Retrieval System         information. It works in conjunction with a taxpayer’s account records.
Internal Revenue         A document containing the policies and procedural guidance for IRS
Manual                   operations.
Notice Review            A program that helps ensure taxpayers receive complete and correct
Program                  information from the IRS and do not receive an erroneous refund.
                         Under this program, notices are selected and reviewed with the goal of
                         improving both the accuracy and quality of information sent to
                         taxpayers.



                                                                                            Page 13
                      The Internal Revenue Service Is Making Progress
                Toward Implementing Daily Processing of Individual Tax Returns




Term                   Definition

Pre-Refund Program     A program that provides coordination of pre-refund compliance
                       activities to ensure timely issuance of refunds and credits that are
                       legally due to filers, while preventing issuance of refunds and credits
                       that are not legally due to filers. A return is said to be pre-refund if the
                       refund can be stopped, has been stopped, or has been offset to another
                       obligation.
Processing Year        The calendar year in which the tax return or document is processed by
                       the IRS.
Tax Module             A specific year and type of return within a taxpayer’s account; all tax
                       modules combined comprise a taxpayer’s account.
Underreporter          The Automated Underreporter Program matches items reported on an
                       individual’s income tax return to information supplied to the IRS from
                       outside sources (such as from employers, banks, and credit unions) to
                       determine if the taxpayer’s tax return reflected the correct amounts.




                                                                                           Page 14
